n n n n, n
", V

i !.'■ ' V ,

■ -

:

:

i.' j

r.

NO:

V

0-5735

f-11." j

DAVID P MORAN — PETITIONER

V

STATE OF FLORIDA — RESPONDENT

ON A PETITION FOR WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
TALLAHASSSE, FLORIDA

David P. Moran X97428
Columbia C. I. Annex
251 SE Corrections Way
Lake City, FL 32025

!

SEP 0 8 EE3

IN THE SUPREME COURT OF THE UNITEdSStM ~L

PETITION FOR WRIT OF CERTIORARI

u.

' 'l

QUESTIONS PRESENTED
1.

Does the United States Supreme Court have the authority to review the

underlying merits of an issue when the action being challenged is a petition for
writ of habeas corpus alleging ineffective assistance of appellate counsel? (Fla. R.
App. P. 9.141(d))
2.

Should an issue that was raised for the first time by the pro se litigant in his

initial brief be reviewable on a petition for writ of habeas corpus alleging
ineffective assistance of appellate counsel if counsel does not raise it himself in an
Anders brief?
3.

Should an involuntary incriminating statement be automatically suppressed

when the accused was in the intensive care unit of a hospital and being given
medications that have known debilitating side effects?
4.

Should a prejudicial improper statement of the law by a state attorney in

closing arguments require automatic reversal when the nature of the accused case
involves a law enforcement officer being injured due to the increased burden placed
upon him?
5.

Should a case be automatically reversed for a retrial when it was adequately

proven that portions of trial transcript are missing?
6.

Should a judgment of acquittal motion be granted when there is a defense of

lack of intent and all of the evidence used against the accused was based on proven
false evidence?

7.

Should a judgment of acquittal motion be granted when there is no body

camera evidence depicting the alleged crime during a planned take down operation
in which officers where staged in position to take the accused into custody despite
testimony from the police that the evidence should exist?
8.

Should dual convictions for aggravated battery and attempted murder be

upheld when there is only one episode of conduct with one victim with no temporal
break whatsoever?
9.

Should consecutive sentences be imposed for the same episode of conduct

with the same victim with no temporal break whatsoever?

n

LIST OF PARTIES
Office of the Attorney General
444 Seabreeze Boulevard
Fifth Floor
Daytona Beach, Florida 32118

RELATED CASES
*Moran v. State, SC20-259, Florida Supreme Court, Judgment entered June
30th 2020.
*Moran v. State, 5D19-1833, Fifth District Court of Appeal, Judgment
entered January 17th 2020.
*Moran v. State, 5D17-3044, Fifth District Court of Appeal, Judgment
entered February 19th 2019.
*State v. Moran, 16-CF-006177-A-OR, Orange County Circuit Court,
Judgment entered September 15th 2017.

in

TABLE OF CONTENTS
QUESTION PRESENTED

1

LIST OF PARTIES ..........

111

RELATED CASES............

m

TABLE OF CONTENTS —■

IV

INDEX TO APPENDICES -

V

TABLE OF AUTHORITIES

VI

OPINIONS BELOW...........

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS

3

PRELIMINARY STATEMENT......

4

STATEMENT OF FACTS...............

5

SUMMARY OF CASE

6

STATEMENT OF CASE...........................

9

REASONS FOR GRANTING PETITION

20

CONCLUSION..........................................

22

IV

INDEX TO APPENDICES
APPENDIX A. Florida Supreme Court denies jurisdictional brief
APPENDIX B. Fifth District Court of Appeal denies petition for writ of habeas
corpus alleging ineffective assistance appellate counsel with authored opinion
APPENDIX C. Fifth District Court of Appeal denies motion for rehearing, rehearing
en banc, and/or certification
APPENDIX D. Fifth District Court of Appeal per curiam affirms direct appeal
APPENDIX E. Fifth District Court of Appeal denies motion for certification and/or
written opinion
APPENDIX F. Docket entries from Orange County Circuit Court
APPENDIX G. Docket entries from Fifth District Court of Appeal

TABLE AUTHORITIES
CASE LAWS
Arizona v. Youngblood 488 US 51, 102 L Ed 2d 281, 109 S Ct 333 USSC 1988

16

Missouri v. Hunter 459 US 359, 74 L Ed 2d 535, 103 S Ct 673 USSC 1983

19

Blackburn v. Alabama 361 US 199, 4 L Ed 2d 242, 80 S Ct 274 USSC 1960

11

Mincey v. Arizona 437 US 385, 57 L Ed 2d 290, 98 S Ct 2408 USSC 1978 -■

11

United States v. Margetis 975 F. 2d 1175 USCA 11th Cir. 1992......................

13

United States v. Vargas 583 F. 2d 3801 USCA 7th Cir. 1978 ...........................

12

Carter v. Montgomery 769 F. 2d 1537 USCA 11th Cir. 1985............ ...............

15

United States v. Whitesell 314 F. 3d 1251 USCA 11th Cir. 2002 .....................

15

United States v. Dudley U.S. Dist. Lexis 31171 USDC 11th Cir. 2011...........

10

Songer v. Wainwright 571 F. Supp. 1384 USDC 11th Cir. 1983.......................

7

Hojan v. State 180 So. 3d 964 FSC 2015..............................................................

8

De Coningh v. State 433 So. 2d 501 FSC 1983

10

Deviney v. State 112 So. 3d 57 FSC 2013

10

Carawan v. State 515 So. 2d 161 FSC 1987

19

State v. Law 559 So. 2d 187 FSC 1989

14

Kelley v. State 569 So. 2d 754 FSC 1990

16

Davis v. State 559 So. 2d 707 4th DCA 1990

18

Northard v. State 675 So. 2d 652 4th DCA 1996

13

Brown v. State 18 So. 3d 1149 4th DCA 2009

12

Velez v. State 645 So. 2d 42 4th DCA 1994

14

Clewis v. State 605 So. 2d 974 3rd DCA 1992

13

Coleman v. State 215 So. 2d 96 4th DCA 1968

7

vi

RULES
18 USCS § 3D 1.2(a)......

19

Fla. R.App. P. 9.141(d) -

i,6

Fla. R. Crm. P. 3.800 (b)

5

Vll

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.

OPINIONS BELOW

The opinion of the Fifth District Court of Appeal appears at appendix B to the
petition and is published.

1

JURISDICTION
The date on which the highest state court decided my case was June 30th
2020. A copy of that decision appears at appendix A.
The jurisdiction of this court is invoked under 28 U.S.C. § 1257(a)

2

CONSTITUTIONAL PROVISIONS
United States Constitution Amendment Five

i, 9, 17

......nor shall any person be subject for the same offense to be twice put in jeopardy
of life and limb, nor shall be compelled in any criminal case to be a witness against
himself.
United States Constitution Amendment Six
by an impartial jury of the state

7, 11, 20

and to have the assistance of counsel for his

defense.
United States Constitution Amendment Eight —

17

......nor cruel and unusual punishment inflicted.
United States Constitution Amendment Fourteen

7, 9, 11, 14, 17

...nor shall any state deprive any person of life, liberty, or property without due
process of law, nor deny to any person within it's jurisdiction the equal protection of
the laws.
Florida Constitution Article I § 2.............................................................................

17

All natural persons, female or male alike, are equal before the law and have
inalienable rights.
Florida Constitution Article I § 9

9, 11, 14, 17

No person shall be deprived of life, liberty, or property without due process of law, or
be put in jeopardy for the offense, or be compelled in any criminal matter to be a
witness against oneself.

3

PRELIMINARY STATEMENT
This honorable court is directed to incorporate by reference transcripts and
pleadings from the Orange County Circuit Court. Included in some of the previous
petitions is references to trial, sentencing, motion to suppress, and record on appeal.
(See appendix F) This honorable court is directed to incorporate by reference
pleadings from the Fifth District Court of Appeal. This court must examine previous
pleadings to gain a full understanding of some of the issues presented in this
petition. (See appendix G) This was done as this court has easy online access to
these documents and so the petitioner did not have to submit a large bulk of
documents in the appendix.

4

\

STATEMENT OF FACTS
TRIAL PROCEEDINGS
The following is a list of relevant trial proceedings. April 13th 2017 Motion to
suppress. April 25th 2017 Motion to suppress hearing. April 28th 2017 Motion to
suppress denied. July 13th 2017 Motion for reconsideration of motion to suppress.
July 24th 2017 Motion for reconsideration of motion to suppress hearing and denial.
July 25th 2017 Changed plea to no contest on counts 3 and 4. July 24th 2017 to July
27th 2017 Trial. August 3rd 2017 Motion for new trial. August 14th 2017 Motion for
new trial denied.
SENTENCING PROCEEDINGS
The following is a list of relevant sentencing proceedings. September 15th
2017 Sentencing hearing. The petitioner was sentenced to the department of
corrections for life on count 1 attempted first degree murder of a Leo with a weapon,
25 years on count 2 aggravated battery with a deadly weapon or causing great
bodily harm on a Leo, 15 years on count 3 aggravated fleeing or attempting to elude
a Leo causing injury or damage, and 1 year on count 4 simple battery. Count 1 was
run consecutive to counts 2, 3, and 4. Counts 2, 3, and 4 were run concurrent with
each other. April 2nd 2018 Motion to correct sentence. (Fla. R. Crm. P. 3.800(b)) April
16th 2018 Motion to correct sentence granted to remove the five year minimum
mandatory from count 2.

5

APPELLATE PROCEEDINGS
The following is a list of relevant appellate proceedings. The following briefs
and motions were submitted to the Fifth District Court of Appeal. June 8th 2018
Ander's brief. October 11th 2018 Pro se initial brief. February 19th 2019 Direct
appeal per curiam affirmed. (See appendix D) March 4th 2019 Motion for written
opinion and/or certification. March 5th 2019 Motion for written opinion and/or
certification denied. (See appendix E) March 25th 2019 Direct appeal mandate.
The following petitions and motions were submitted to the Fifth District
Court of Appeal. June 21st 2019 Petition for writ of habeas corpus alleging
ineffective assistance of appellate counsel. (Fla. R. App. P. 9.141(d)) August 20th
2019 State's answer to petition. September 12th 2019 Reply to state's answer.
January 17th 2020 Petition for habeas corpus alleging ineffective assistance of
appellate counsel denied with authored opinion. (See appendix B) January 27th
2019 Motion for rehearing, certification, and/or rehearing en banc. January 29th
2020 Motion for rehearing, certification, and/or rehearing en banc denied. (See
appendix C) The following briefs were submitted to the Florida Supreme Court.
February 24th 2020 Jurisdictional brief. June 30th 2020 Jurisdictional brief denied.
(See appendix A)
SUMMARY OF THE CASE
The main issue in this case is that appellate counsel failed to argue five
meritorious issues even after the petitioner made him aware of numerous factual
6

assertions that are on the face of the record related to several of these issues in
communications with him. This court should refer to the docket entry from June
21st 2019 on the Fifth District Court of Appeal website to view the petition and it's
exhibits. These communications with appellate counsel are entered as exhibits in
that petition. This not only shows ineffectiveness on his part but a blatant disregard
for the petitioner's U.S. Const. 6th Amend, right that borders the line of malicious
intent to keep an innocent man in prison. Appellate counsel's failure to argue these
five meritorious issues violated the petitioner's U.S. Const. 14th Amend, right to due
process of law by not furnishing him with a fair direct appeal proceeding. "Failure
, to file a brief in a non-frivolous appeal falls well below the standard of competency
expected and required of counsel in criminal cases and therefore constitutes
ineffective assistance of counsel." (Songer v. Wainwright 571 F. Supp. 1384 USDC
11th cir. 1983)
Trial counsel provided appellate counsel with a statement of judicial acts to
be reviewed. Appellate counsel has chosen to blatantly disregard these issues even
though the petitioner provided him with evidence on the face of the record showing
these to be more than meritorious issues in communications with him. "When the
petitioner requests that his attorney take an appeal, his duty in that regard is to
take the appeal when it is deemed meritorious or non-frivolous." (Coleman v. State
215 So. 2d 96 4th DCA1968)
On ground one and two the Fifth District Court of Appeal cited because they

7

reviewed the issues in the Ander's process and in the petitioner's pro se brief that
counsel cannot be deemed ineffective since these issues were raised. This is a
serious conflict that this court is obligated to resolve. On ground one the issue
wasn't that appellate counsel failed to raise the issue. It is simply that he missed
numerous underlying facts that are on the face record that were material to the
issue despite the petitioner providing him with the evidence in communications
with him. On ground two the title of the petition is ineffective appellate counsel not
ineffective pro se litigant. There should not be a rule that precludes counsel from
being deemed ineffective when the pro se litigant raises an issue in his brief as
counsel is far better equipped to argue issues. "First, the alleged omissions are of
such a magnitude as to constitute a serious error or substantial deficiency falling
measurably outside the range of professionally acceptable performance and second,
whether the deficiency in performance compromised the appellate process to such a
degree as to undermine the confidence in the correctness in the result. The
petitioner has the burden of alleging a specific serious omission or overt act upon
which the claim of ineffective assistance of counsel can be based." (Hojan v. State
180 So. 3d 964 FSC 2015)

8

STATEMENT OF CASE
GROUND ONE
This court must refer to the docket entries in the preliminary statement for
the full argument on this issue. (See appendix F) On May 18th 2016 two detectives
came to Orlando Regional Medical Center to take a statement from the petitioner.
The statement the petitioner gave to detectives was based upon an assumption he
was going on from what guards watching him at the hospital told him about the
incident. The statement contained an assumption that the petitioner must have
attempted "suicide by cop." The petitioner's memory about the shooting incident
was impaired for many months after the shooting due to it being such a traumatic
experience. According to medical records the petitioner was in the intensive care
unit and being given two medications (oxycodone and serequel) that have known
debilitating side effects. There are notes in medical records entered by medical
professionals who had contact with the petitioner 10, 12, and 13 days after the
involuntary statement was given citing psychiatric issues, short term and long term
memory issues, disorientation, dizziness, and conversations with medical
professionals about "time travel.” The petitioner was in no position many days after
the statement was taken to appreciate a knowing and voluntary waiver of his
Miranda rights let alone the day of the statement. This issue violated the
petitioner's U.S. Const. 5th Amend, and his Fla. Const. Art. I §9 right to not be a
witness against himself, and his U.S. Const. 14th Amend, and his Fla. Const. Art. I
§9 right to due process of law by not allowing him a fair trial proceeding. The
9

requisite level of comprehension did not exist for this statement to be deemed
■ voluntary. "Only if the totality of the circumstances surrounding the interrogation
reveal both an uncoerced choice and the requisite level of comprehension may a
court properly conclude the Miranda rights have been voluntarily waived." (United
States v. Dudley U.S. Dist. Lexis 31171 USDC 11th Cir. 2011)
The oxycodone and serequel are the improper influences in this case as they
have known debilitating side effects and are heavily abused on the streets. "For an
incriminating statement to be admissible in court, it must be demonstrated that the
petitioner made the statement voluntarily and that the statement was not
involuntary and the result of improper influences, but for which the petitioner
would have remained silent. If a petitioner's statement resulted from a law
enforcement officer's illegal actions, that evidence is "fruit of the poisonous tree"
and the trial court should exclude it from trial." (Deviney v. State 112 So. 3d 57 FSC
2013)
The medical professionals advise patients not to operate a vehicle or
machinery, or to make any important legal decisions. Waiving of Miranda rights
falls into this category. If the judge was informed of a petitioner being under the
influence of these kinds of medications at a plea hearing he would not have accepted
the plea. "The knowing and voluntary requirements for confessions are similar to
the requirements for accepting a guilty plea." (De Coningh v. State 433 so. 2d 501
FSC 1983)

10

"Statements made by a petitioner violating the strictures of Miranda v.
Arizona are admissible for impeachment if their trustworthiness satisfies legal
standards, but any criminal trial use against a petitioner of his involuntary
confession is a denial of due process of law even though there is ample evidence
besides the confession to support his conviction." (Mincey v. Arizona 437 US 385, 57
L Ed 2d 290, 98 S Ct 2408 USSC 1978)
This court has the authority to review all of the evidence on and off the face of
the record when deciding this issue. "In determining the voluntariness of an
accused confession, the scope of review by this court is not restricted to .evidence
introduced prior to admission of the confession, that court may also take into
consideration evidence introduced thereafter." (Blackburn v. Alabama 361 US 199, 4
L Ed 2d 242, 80 S Ct 274 USSC 1960)
GROUND TWO
This court must refer to the docket entries in the preliminary statement for
the full argument on this issue. (See appendix F) The state attorney made an
improper statement of the law in closing arguments that vitiated from the fairness
of trial. This issue violated the petitioner's U.S. Const. 6th Amend, right to an
impartial jury, his U.S. Const. 14th Amend., and his Fla. Const. Art. I §9 right to due
process of law by not allowing him a fair trial proceeding. The state told the jury "if
you come back not guilty for the petitioner your verdict is saying the officers wanted
to kill him.” Trial counsel motioned for a mistrial at the bench which was denied by

11

the judge without giving a curative instruction to the jury. This statement tells the
jury that if they come back not guilty for the petitioner that officers would
automatically be blamed for a wrongful shooting. The jury would be in fear for going
against the officers. The petitioner already has an extra burden placed upon him
due to the nature of his case in which a law enforcement officer got injured in the
line of duty since the jury is predisposed to believe the cops over the petitioner. The
state's comment is one which could not be inferred from the evidence since the
defense never made the argument that the officers tried to kill the petitioner. "A
prosecutor must confine his closing argument to evidence in the record and must
not make comments which could not be reasonably inferred from the evidence. The
proper limit of rebuttal is a reply to what has been brought out in a petitioner's
closing argument." (Brown v. State 18 So. 3d 1149 4th DCA 2009)
The state attorney's closing argument clearly told the jury they could find the
petitioner guilty for another reason besides the state proved it's case beyond a
reasonable doubt. "A prosecutor's misstatements of law in closing arguments pan be
grounds for reversal. Included within this restriction are statements that in effect
distort the burden of proof by suggesting incorrectly what the jury must find in
order to reach a certain verdict." (United States v. Vargas 583 F. 2d 3801 USCA 7th
Cir. 1978)
"Prosecutorial remarks that invite the jury to convict the petitioner for a
reason other than his guilt of the crimes charged have been determined to

12

constitute error." (Northard v. State 675 So. 2d 652 4th DCA1996)
"The appellate court held that it is legally incorrect to ask the jury to decide,
as the test for reasonable doubt who is the liar between the accused and the police
officer." (Clewis v. State 605 So. 2d 974 3rd DCA 1992)
GROUND THREE
This court must refer to the docket entries in the preliminary statement for
the full argument on this issue (See appendix F) There are portions of trial that did
not get transcribed. There are two notable omissions that are missing that are
provable through other portions of the record. One omission is the state's final plea
offer that was offered the day of trial. The state had made an offer to plea to the
bench on count 2 and in doing so that resolve all four counts. The second omission is
the judge's final decision and explanation for denying the motion for reconsideration
of the motion to suppress. Appellate counsel and trial counsel were different so the
petitioner does not have to show any prejudice by the omissions just the fact that
portions are missing. "A complete and accurate record of trial court proceedings is
essential to the appellate process, when a petitioner is represented by an appeal
lawyer different from a trial lawyer, a complete and accurate transcript is an
imperative. A criminal petitioner need not show specific prejudice in order to obtain
relief..” (United States v. Margetis 975 F. 2d 1175 USCA 11th Cir. 1992)
Just because the Fifth District Court of Appeal did not reference this ground
in it's opinion doesn't mean it was without merit. The fact is the petitioner

13

adequately proved there was portions of transcript missing and satisfied the two
prongs of the case laws cited. This issue violated the petitioners U.S. Const. 14th
Amend, and his Fla. Const. Art. I §9 right to due process of law by not furnishing
him with a fair direct appeal and petition for writ of habeas corpus proceeding.
"When a portion of the transcript is unavailable and the petitioner is represented by
the same attorney at itrial and on appeal, reversal is not required absent a showing
of hardship to the petitioner and a prejudicial effect upon his appeal." (Velez v. State
645 So. 2d 42 4* DCA1994)
GROUND FOUR
This court must refer to the docket entries in the preliminary statement for
the full argument on this issue. (See appendix F) The judgment of acquittal denial
based on the argument of lack of intent violated the petitioner's U.S. Const. 14th
Amend, and his Fla. Const, Art. I §9 right to due process of law by not allowing him
a fair trial proceeding. There is a complete lack of substantial competent evidence
from which a rational trier of fact could find guilt. All of the evidence used against
the petitioner was based on speculation and proven false evidence. "A special
standard of review of the sufficiency of the evidence applies where a conviction is
based on circumstantial evidence." (State v. Law 559 So. 2d 187 FSC 1989)
Since all of the evidence was based on speculation and proven false evidence
that would mean the jury could only infer facts that can't prove any elements
needed for conviction. This is similar to the "fruit of the poisonous tree” doctrine.

14

Proven false evidence can never be construed as substantial competent evidence
from which a rational trier of fact could infer guilt. "If the guideline that applies to a
specific offense expressly provides that a more harsh guideline should be applied if
certain facts exist, the preponderance of the evidence standard applies in
determining whether those certain facts exist." (United States v. Whitesell 314 F. 3d
1251 USCA 11th Cir. 2002)
The forensic evidence depicted in photos does not support the officers version
of events that preceded the shooting. Fragoso's careless act of shooting the
petitioner unprovoked led him to lose control of his vehicle and impact Mason's leg
against a dumpster. Clearly the petitioner could not have had any premeditated
intent to injure or murder Mason or use his vehicle as a deadly weapon. Mason
could never have died from a broken leg. There is no evidence anywhere on the
record to prove any of the elements needed for conviction on attempted murder or
aggravated battery. "A defense if lack of intent not only places the element of intent
in issue but substantially reduces the extent to which evidence can be considered
overwhelming." (Carter v. Montgomery 769 F. 2d 1537 USCA 11* Cir. 1985)
There is no body camera evidence depicting the shooting incident during a
planned take down operation in which officers were staged in position to take the
petitioner into custody despite testimony from Fragoso that this evidence should
exist. This situation defies conventional logic. If this evidence existed as it should
per Fragoso's testimony it would have shown the petitioner being shot by the police

15

unjustifiably causing him to lose control of his vehicle and impacting Mason's leg
against the dumpster. "In a criminal prosecution the presence or absence of bad
faith on the part of the police with regard to the loss or destruction of possibly
exculpatory evidence must necessarily turn on the police's knowledge of the
exculpatory value of the evidence at the time it was lost or destroyed. The good or
bad faith of the state is irrelevant when the state fails to disclose material
exculpatory evidence to the petitioner in criminal prosecution." (Arizona v.
Youngblood 488 US 51,102 L Ed 2d 281, 109 S Ct 333 USSC 1988)
Two officers who were at the time assigned to road patrol and road patrol
supervisor vehicle's mysteriously did not have in dash cameras in them which
would have captured footage of the shooting since both vehicle's lights were on and
facing the incident. This situation combined with the lack of body camera evidence
defies conventional logic. This not only shows bad faith by the police but malicious
intent to not capture footage that would have exonerated the petitioner. "Unless a
criminal petitioner shows bad faith on the part of the police, failure to preserve
potentially useful evidence does not constitute a violation of due process." (Kelley v.
State 569 So. 2d 754 FSC 1990)
The Fifth District Court of Appeal lied in their opinion to make the petitioner
appear guilty. They cited in their opinion that the petitioner never disputed driving
towards the officers. The petitioner did dispute that several times at trial. They
made an argument that suicide by cop statement had a basis in fact when the

16

petitioner adequately proved in ground one that statement was not given
voluntarily. This court should refer to the docket entry from January 27th 2020 on
the Fifth District Court of Appeal website to view the motion for rehearing. This is a
horrendous miscarriage of justice that this court is obligated to correct. When
honorable judges who took an oath to uphold the law and dispense fair justice
blatantly lie in a published opinion to keep a wrongfully convicted man in prison
something has to be done.
GROUND FIVE
This court must refer to the docket entries in the preliminary statement for
the full argument on this issue. (See appendix F) The petitioner was convicted and
sentenced on both aggravated battery and attempted murder for the same episode
of conduct and the same victim with no temporal break whatsoever. This issue
violated the petitioner's U.S. Const. 5th Amend, and his Fla. Const. Art. I §9 right
not to be put twice in harms way for the same offense, his U.S. Const. 8th Amend.
right not to be subjected to cruel and unusual punishment, his U.S. Const. 14th
Amend, and his Fla. Const. Art. I §2 right to equal protection of the law, and his
U.S. Const. 14th Amend, and his Fla. Const. Art. I §9 right to due process of law by
not allowing him a fair sentencing proceeding. The petitioner cannot help but
commit aggravated battery in the process of attempted murder. The fact of whether
the victim was struck or not is inconsequential. The perfect analogy is a person
committing completed murder is not charged with aggravated battery even though

17

that person was injured for a period of time before death. There is a flaw in the
language Blockburger analysis that allows for both charges to be upheld. The
legislature did not intend for murder convictions to be upheld with aggravated
battery so by default the same argument applies with attempted murder. "We are
unable ito determine if the legislature intended dual convictions for aggravated
battery and attempted homicide that occurred during that attempt where no
additional injury was caused to another person but are compelled to reverse the
judgment of conviction and sentence for aggravated battery." (Davis v. State 559 So.
2d 707 4th dca 1990)
Aggravated battery is simply a degree variant of attempted murder. Victim
contact being unnecessary to prove attempted murder is inconsequential in this
case. If Mason had dodged impact of the petitioner's vehicle he would have been
charged with aggravated assault and attempted murder. This court must also
consider what intent the petitioner had in his mind. The petitioner could not have
had both the intent to injure and murder the officer at the same time. It had to be
one or the other despite the fact that it was adequately proven the petitioner had no
intent to strike Mason with his vehicle. If the petitioner was charged with
attempted manslaughter that would have been double jeopardy with aggravated
battery. It defies conventional logic as to how a lesser included can be double
jeopardy but the greater included cannot be. "Dual punishments for attempted
manslaughter and aggravated battery arising from the single act committed by a

18

petitioner are impermissible." (Carawan v. State 515 So. 2d 161 FSC 1987)
The petitioner was sentenced to life plus 25 years running consecutive for the
same episode of conduct on the same victim with no temporal break whatsoever.
The petitioner is not treating this as a moot issue as this is the difference between
applying for clemency in 25 years as opposed to 12.5 years. In federal sentencing
cases this situation would mandate concurrent sentences. The legislature did not
intend for anything over a single life sentence to be imposed for this single act.
"Where with respect to cumulative sentences imposed in a single trial, the double
jeopardy clause does no more than to prevent the sentencing court from proscribing
greater punishment than the legislature intended." (Missouri v. Hunter 459 US 359,
74 L Ed 2d 535, 103 S Ct 673 USSC 1983)
If this were a federal case these counts would be run concurrently and the
petitioner would have a single life sentence instead of life plus 25 years. "All counts
involving substantially the same harm shall be grouped together into a single
group. Counts involve substantially the same harm within the meaning of this rule:
When counts involve the same victim and the same act or transaction." (18 USCS
§3D 1.2(a))

19

REASONS FOR GRANTING THIS PETITION
This honorable court should grant review of this case to correct these
substantial violations of due process and because there is overwhelming sufficient
evidence to support the petitioner's innocence on counts 1 and 2.. This will ensure
appellate counsel is performing at the standards demanded of the U.S. Const. 6th
Amend. This court should also have the authority to review the underlying issues of
ineffective assistance of appellate counsel. Most pro se litigant's typically know
nothing about the law during the direct appeal process. By the time they learn
enough about the law they are already representing themselves. If this court grants
review of this case it should function as a second direct appeal whereas at the state
level it would not.
This honorable court should grant review of this case to correct an injustice in
the law when it comes to what is reviewable in petitions for writ of habeas corpus
alleging ineffective assistance of appellate counsel. There should be nothing that
precludes appellate counsel from being deemed ineffective if the pro se litigant
raises an issue for the first time in his pro se brief that counsel failed to brief in
Anders. The petition is titled ineffective appellate counsel not ineffective pro se
litigant.
This honorable court should grant review of this case to ensure involuntary
incriminating statements taken from the petitioner while he is in the intensive care
unit at a hospital and being given medications that have known debilitating side

20

effects are properly suppressed from being used at the trial court level. This will
avoid situations in the future where the totality of the circumstances may become
an issue. This court should place a figurative "do not enter” sign on all intensive
care unit doors everywhere.
This honorable court should grant review of this case to ensure that state
attorney's are taking greater care in their comments during closing arguments. This
court should establish a separate higher standard for what an improper statement
of the law is on cases involving a law enforcement officer being injured in the line of
duty.
This honorable court should grant review of this case to ensue that trial
proceedings are being transcribed properly and important omissions from the record
do not occur.
This honorable court should grant review of this case to allow for automatic
granting of judgment of acquittals in situations where all of the evidence is based on
circumstance, speculation, and proven false evidence.
This honorable court should grant review of this case to allow for automatic
granting of judgment of acquittals in situations where body camera evidence should
per officer testimony exist of an incident yet do not. This show of bad faith by the
police is a detrimental violation of due process this court is obligated to correct as
this favorable evidence would have exonerated the petitioner.
This honorable court should grant review of this case to ensure that the

21

sentence is withheld on aggravated battery upon dual convictions for aggravated
battery and attempted murder for the same episode of conduct with the same victim
with no temporal break whatsoever.
This honorable court should grant review of this case to ensure that
consecutive sentences for the same episode of conduct with the same victim with no
temporal break whatsoever are barred. This court is obligated to bring Florida
sentencing guidelines in line with federal sentencing guidelines.
CONCLUSION
This petition for writ of certiorari should be granted. This request is made in
good faith. The petitioner swears the facts contained in this petition for writ of
certiorari are true and correct.
/s/

David P. Moran X97428
Pro se Litigant

Date:

\uiY

22

, 2020.

-1

\

dPP.E/ypix

t

